4a
\

OCKLE

En Boies CA j E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

JUAN JOE CANO,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(b), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 8505 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska vs 2 4 d,
RENEE J. GOSS 9. ( eabiaa ‘6
Notary Public

My Comm. Exp. September 5, 2023
Affiant 41298
